                                                                       Office of Inspector General

                                          8601 Adelphi Road, College Park, Maryland 20740-6001


                                                                            May 27,2010


Phillip M. Heneghan
Inspector General
U.S. International Trade Commission
500 E Street, SW
Washington, DC 20436

Subject: Audit Report #10-09: System Review Report on the U.S. International Trade
Commission's Office ofInspector General Audit Organization


Dear Inspector General Heneghan:

Attached is the official System Review Report on the U.S. International Trade
Commission's Office of Inspector General Audit Organization conducted in accordance
with Government Auditing Standards and Council of the Inspectors General on Integrity
and Efficiency guidelines. Your response to the draft report is included as Enclosure 2
with excerpts incorporated into the relevant sections of the report.

We agree with your proposed corrective action to the recommendations. We thank you
and all of your staffthat we dealt with for your assistance and cooperation during the
conduct of the review.




Paul Brachfeld
Inspector General

Attachment
                                                                            Office of Inspector General

                                               8601 Adelphi Road, College Park, Maryland 20740-6001


                                                                                     May 27,2010


                                                                         AUDIT REPORT #10-09


 Mr. Philip M. Heneghan
 Inspector General
 U.S. International Trade Commission
 500 E Street, SW
 Washington, DC 20436

Dear Mr. Heneghan:

We were tasked with reviewing the system of quality control for the audit organization ofthe
International Trade Commission Office of Inspector General (ITC OIG) in effect for the year
ended September 30,2009. A system of quality control encompasses an OIG's organizational
structure and the policies adopted and procedures established to provide it with reasonable
assurance of conforming with Government Auditing Standards. The elements of quality control
are described in Government Auditing Standards. OIG's are responsible for designing a system
of quality control and complying with it to provide reasonable assurance of performing and
reporting in conformity with applicable professional standards in all material respects. Our
responsibility is to express an opinion on the design of the system of quality control and ITC
OIG's compliance therewith based on our review.

However, we determined that we could not express an opinion of the audit organization of the
ITC OIG because the audit organization has- not conducted any audits in the past five years.
Based on the Government Accountability Office's Government Auditing Standards, the external
peer review requirement is effective within 3 years from the date an audit organization begins
field work on its first assignment in accordance with GAGAS for both financial audit practices
and performance audit practices. Therefore, we do not express an opinion on the design of or
compliance with the system of quality control.

Over the past four years, the audit organization consisted of Inspectors General appointed by the
ITC Chairman from within ITC management on six month contracts. A permanent Inspector
General, from outside lTC, was hired in December 2009 and is in the process of putting in place
a system of quality control for the audit organization operations. A senior analyst was hired in
March 2010 to audit information technology systems.

Our review was conducted in accordance with Government Auditing Standards and guidelines
established by the Council ofthe Inspectors General on Integrity and Efficiency (CIGIE).
During our review, we interviewed ITC personnel and obtained an understanding of the nature of
                                                                           FINAL AUDIT REPORT #10-09



the IIT'C OIG audit organization. In addition, we applied certain limited procedures in
accordance with guidance established by CIGIE related to ITC OIG's monitoring of audit work
perf<l>rmed by Independent Public Accountants (IPA) under contract where the IPA served as the
principal auditor. It should be noted that monitoring of engagements performed by IPAs is not
an a1l1dit and therefore is not subject to the requirements of Government Auditing Standards. The
purpose of our limited procedures was to determine whether ITC OIG had controls to ensure
IPA~ performed contracted work in accordance with professional standards. However, our
obje~tive was not to express an opinion and accordingly, we do not express an opinion, on ITC
OIG~ monitoring of work performed by IPAs. Enclosure 1 to this report identifies the offices of
the lifC OIG that we visited and the engagements that we reviewed.
    I

In pJrforming our review, we determined the ITC OIG does not have a system of quality control
for the ITC OIG's audit organization. In brief, the ITC OIG does not have written policies and
procedures; performed no audits; and did not take appropriate steps to assure that any work
perf<J,rmed by non-Federal auditors complies with GAGAS.

The comments provided below will assist the audit organization in implementing a system of
quality control for its audits and attestation engagements. The system of quality control
encOmpasses the OIG's leadership, emphasis on performing high-quality work, and the OIG's
policies and procedures designed to provide reasonable assurance of complying with
professional standards and applicable legal and regulatory requirements.

Finding 1. Policies and Procedures - Not Documented

Appropriate policies and procedures have not been documented and put in place for use by the
ITC OIG. According to GAGAS, each OIG must document its quality control policies and
procedures and communicate those policies and procedures to its personnel. OIGs should also
analyze and summarize the results of their monitoring procedures at least annually, with
identification of any systemic issues needing improvement, along with recommendations for
corrective action. With regards to monitoring, GAGAS states that reviews of the work and the
report that are performed as part of supervision are not monitoring controls when used alone.
However, these types of pre-issuance reviews may be used as a part ofthe annual analysis and
summary.

OIG quality control and assurance programs should address:

   a. Leadership responsibilities for quality in the audit organization
    I  •  Annual audit plans
   b'. Independence and legal and· ethical requirements
   c. Initiation, acceptance, and continuance of audit and attestation engagements
       • Method to track audits (e.g., audits scheduled, cancelled, terminated, or completed
          during the period)
       • Method to track and follow-up on recommendations to ensure corrective action was
          taken.


                                                     2
                                National Archives and Records Administration
                                                                             FINAL AUDIT REPORT #10-09



   d. Human resources
      • Hiring procedures
      • Method to track continuing professional education for each employee
      • Organization chart; a staff roster (including series and grades); professional
          designations; advanced degrees or special skills
   e. Audit and attestation engagement performance, documentation, and reporting
          • General Standards
          • Fieldwork Standards
          • Reporting Standards
          • Standards specific to financial statement audits, attestation engagements and
              performance audits
          • Audit work performed by non-Federal auditors, such as Independent Public
              Accounting Firms
      Monitoring of quality, which is a regular assessment of audit and attestation engagement
      work to provide management with reasonable assurance that the policies and procedures
      related to the system of quality control are appropriately designed and operating
      successfully. The monitoring process should result in internal quality assurance review
      reports at least annually. This monitoring process should evaluate:
          • Adherence to professional standards and legal requirements
          • The design ofthe internal control system
          • Whether staff is complying with quality control policies and procedures.

   lecommendation - The ITC OIG should develop written policies and procedures designed to
   ~rovide reasonable assurance that GAGAS and other pertinent requirements are met.
    i

   Views of Responsible Official

   The ITC OIG agrees with the finding and recommendation.
    I
    I

Fin4ing 2. Competence - No Records· of Continuing Professional Education and Training

The bIG did not have documentation supporting continuing professional education and training
for $e Inspectors General, the only audit staff on board, who oversaw the audits that were
contracted out to independent public accounts.
    I




Imp~oving   their own competencies and meeting CPE requirements are primarily the
resp~nsibilities of individual auditors. The audit organization should have quality control
procedures to help ensure that auditors meet the continuing education requirements, including
doc$nentation of the CPE completed.

Now that the ITC OIG is expanding it is important to have a system in place to track continuing
prof~ssional education and training. Without sufficient continuing professional education and
trainiing, and documentation thereof, it is difficult to assess whether the audit staff collectively

                                                       3
                                  National Archives and Records Administration
                                                                                                (


                                                                             FINAL AUDIT REPORT #10-09



poss~ss adequate professional competence for the tasks required and individually whether an
auditor possess the ability to make sound professional judgments.
    !
   Recommendation - The ITC OIG should develop a method to maintain documentation
   s~owing continuing professional education and training for auditors to determine and ensure
   they have met the GAGAS requirements.

   Views of Responsible Official
    !


   'the ITC OIG agrees with the finding and recommendation.

    I




The. TC OIG has no audit tracking system indicating audits scheduled, cancelled,
ter~inated, and completed.

GAqAS prescribes policies and procedures for the initiation, acceptance, and continuance of
audit and attestation engagements should be designed to provide reasonable assurance that the
audit organization will undertake audit engagements only if it can comply with professional
stan<Jards and ethical principles and is acting within the legal mandate or authority of the audit
orgapization.

     ecommendation - The ITC OIG should develop a method to track audits (e.g., audits
   s heduled, cancelled, terminated, or completed during the period).
    I

   Views of Responsible Official
    !


   The ITC OIG agrees with the finding and recommendation.


Finding 4. Reporting Requirements - No Records of Tracking Audit Recommendations

The ITC OIG has no audit recommendation tracking system indicating the status of
recommendations. As the ITC OIG completes audit reports, the ITC OIG should have a method
to track and follow-up on recommendations to ensure corrective action was taken.

The Inspector General Act of 1978, as amended (1988), specifies reporting requirements for
semiannual reports, including a description ofthe recommendations for corrective action made
with respect to significant problems, abuses, or deficiencies and the identification of each
significant recommendation described in previous semiannual reports on which corrective action
has not been completed.




                                                       4
                                  National Archives and Records Administration
                                                                            FINAL AUDIT REPORT #10-09



Having a method of tracking and following up on recommendations will assist in complying with
semi-annual reporting requirements.

   Recommendation - The ITe OIG should develop a method to track and follow-up on
   recommendations to ensure corrective action was taken.

   Views of Responsible Official

   The ITe OIG agrees with the finding and recommendation.


Finding 5. Quality Control- No Records of Communicating Prior External Peer Review
To Appropriate Oversight Bodies

The ITe OIG was not able to find any records of communicating the prior external peer review
report to appropriate oversight bodies.

GAGAS states that an external audit organization should make its most recent peer review report
publicly available. For example, by posting the peer review report on an external Web site or to
a publicly available file designed for public transparency of peer review results. If neither of
these options is available to the audit organization, then it should use the same transparency
mechanism it uses to make other information public, and also provide the peer review report to
others upon request. Internal audit organizations that report internally to management should
provide a copy of the external peer review report to those charged with governance. Government
audit organizations should also communicate the overall results and the availability of their
external peer review reports to appropriate oversight bodies. This requirement does not include
the letter of comment.

   Recommendation - The ITe OIG should maintain records supporting compliance with
   GAGAS including communication of external peer reviews to appropriate oversight bodies.

   Views of Responsible Official

   The ITe OIG agrees with the finding and recommendation.


Finding 6. Agency Program Audits - Not Performed

Agency program audits were not being conducted. We believe it is relevant to note that the ITe
OIG had insufficient resources to accomplish its audit plan or routinely cover its audit universe
and had not actually conducted any audits over the past four years. Rather, the ITe OIG
oversaw audits contracted out to IP As over the last several years.




                                                      5
                                 National Archives and Records Administration
                                                                            FINAL AUDIT REPORT #10-09



OIGs have responsibility to report on current performance and accountability and to foster good
program management to ensure effective government operations. The Inspector General Act of
1978 (lG Act), as amended, created the OIGs to conduct, supervise, and coordinate audits
relating to the programs and operations of their agencies.

Without additional audit staff, the OIG may not be able to accomplish its basic OIG mission of
delivering quality audits. We acknowledge ITC OIG is in the process of hiring an additional
auditor.

   Recommendation - The ITC OIG should perform audits relating to the programs and
   operations ofITC in accordance with GAGAS.

   Views of Responsible Official

   The ITC OIG agrees with the finding and recommendation.


Finding 7. IPA Monitoring - Adequacy of the IPA Monitoring

ITC OIG did not adequately monitor IPA work. Section 4(b) of the Inspector General Act of
1978, as amended (5 U.S.C. Appendix 3) requires IGs to take appropriate steps to assure that any
work performed by non-Federal auditors complies with GAGAS.

GAOIPCIE FAM 650 provides guidance in making the judgments necessary for the OIG's to use
the work of other auditors and specialists. It also provides guidance for determining the extent of
the review and maintenance of supporting documents by the OIG for determining the
contractor's compliance with GAGAS. The Financial Statement Audit Network (FSAN) ofthe
Federal Audit Executive Committee of the Council of Inspectors General on Integrity and
Efficiency (CIGIE) has a monitoring and oversight tool based on FAM 650 guidance that can be
used to facilitate the oversight efforts ofOIG.

ITC OIG did not perform adequate procedures to ensure that the work of the IPA adhered to
GAGAS. We noted that the ITC OIG for the contracted audit of the ITC Fiscal Year 2008
financial statements did not determine the degree of responsibility the OIG accepted with respect
to using the work of the IP A. We noted that the monitoring files did not contain a strategy and
plan for monitoring and accepting the IPA's work based on the degree of responsibility the OIG
accepted with respect to using the work of the IPA. There was no evidence that the ITC OIG
reviewed the:

        •   Contract deliverables for consistency with the contract requirements and GAGAS.
        •   IPA's audit documentation and reports for adherence with GAGAS.
        •   There is no evidence the ITC OIG monitored adherence to milestones.




                                                      6
                                 National Archives and Records Administration
                                                                            FINAL AUDIT REPORT #10-09



In addition, the OIG did not consider the IP A's system of quality control as no description of the
IPA's system of quality control was included in their proposal. Also there were no references
from other clients with the IPA's proposal.

lithe OIG does not understand the IPA's system of quality control or contact references from
other clients, the OIG cannot in good faith ensure the IPA is capable of performing an audit in
accordance with GAGAS. The information, if provided, could have impacted the scope of the
OIG's monitoring activities. If the work of others in not adequately monitored, there is no
assurance the IPA's conducted their work in accordance with GAGAS or the contract.

   Recommendation - The ITC OIG should use the GAOIPCIE FAM 650 as guidance in
   making the judgments necessary for the OIG to use the work of other auditors and specialists
   and for determining the extent of the review and maintenance of supporting documents for
   determining the contractor's compliance with GAGAS.

   Views of Responsible Office

   The ITC OIG agrees with the finding and recommendation.




Paul Brachfeld
Inspector General
National Archives and Records Administration



(Enclosures)




                                                      7
                                 National Archives and Records Administration
                                                                           FINAL AUDIT REPORT #10-09



                                                                                          Enclosure 1
Peer Review Scope and Methodology

Scope and Methodology

We detennined that we could not express an opinion of the audit organization of the
International Trade Commission OIG at this time because the audit organization has not
conducted any audits in the past five years. Based on the Government Accountability Office's
Government Auditing Standards, the external peer review requirement is effective within 3 years
from the date an audit organization begins field work on its first assignment in accordance with
GAGAS for both financial audit practices and perfonnance audit practices.

We reviewed the financial statement audit monitoring activities covering the FY 2008 financial
statements that were perfonned under contract by Brown & Company, Certified Public
Accounts, Professional Limited Liability Company. Our peer review was limited to audits
perfonned by others completed in accordance with GAO Government Auditing Standards.
During the period under review, October 1, 2008 through September 30, 2009, the ITC OIG
issued two Semiannual Reports to Congress, which included a description of one audit.

The peer review team, consisting of the Assistant Inspector General for Audits (AlGA) and one
staff auditor from the NARA OIG interviewed ITC OIG staff members. Our review was
conducted in accordance with the guidelines established by the Council ofthe Inspectors General
on Integrity and Efficiency Audit Committee.

Fieldworkwas perfonned during March 2010 at the ITC OIG which is located in Washington,
DC.

Reviewed Monitoring Files of ITC OIG for Contracted Engagements

Report Date           Report Title

November 14, 2008     Independent Auditor's Report of the U.S. International Trade
                      Commission's Financial Statements for Fiscal Years 2008 and 2007




                                                     8
                                National Archives and Records Administration
                                                                 FINAL AUDIT REPORT #10-09


                                                                                       Enclosure 2
 OFFICE OF INSPECTOR GENERAL




        UNITED STATES INTERNATIONAL TRADE COMMISSION

                                    WASHINGTON, DC    204~6

Via Electronic Transmission

May 25, 2010                                                        OIG-HH-009

Paul Brachfeld
Inspector General
National Archives and Records Administration
8.601 Adelphi Road
College Park, Maryland 20740-6001

Subject: Management Response on Draft Audit Report #10-09: System Review Report on
the U.S. International Trade Commission's Office of Inspector General Audit Organization

Dear Inspector General Brachfeld:

This memorandum is in response to the subject draft audit report dated May 12,2010. As
the newly appointed Inspector General at the USITC, I have found the results of this audit to
be beneficial in identifying the areas that require my immediate attention. I agree with the
seven findings and recommendations in the report and have decided to take thirteen specific
actions to fully implement your recommendations. Detailed comments on these actions
including status, and target completion dates are attached. The OIG is committed to
establishing a quality audit program with strong internal controls. Implementing your
recommendations will provide us with a solid foundation to ensure we perform quality audit
work.

I would like to express my appreciation for the cooperation and professionalism displayed
by your staff during the course of the audit. If you have any questions regarding our
response, please feel free to contact me on (202) 205-2210.·




Philip M. Heneghan
Inspector General


Attachment: Inspector General Action Plan
audit on our public website within 3
                                       In-progress
    In-progress   8/15/2010




2
